U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


       NATIONAL INSTITUTE OF
  STANDARDS AND TECHNOLOGY

       State Technology Extension Program
        Award Process Designed to Promote
        Merit-Based Decisions, but Process
                     Needs More Discipline
                         CFDA No. 11.613

     Audit Report No. DEN-10961-9-0001 / September 1999




                   Office of Audits, Denver Regional Office
U.S. Department of Commerce                                                                       Report No. DEN-10961-9-0001
Office of Inspector General                                                                                    September 1999




                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

I.        NIST Developed and Published
          Appropriate Evaluation Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II.       NIST Did Not Publish Annual Federal Register Notices . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.      Review Procedures Promoted Merit-Based Decisions,
          But Review Practices Need Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          A.        Minor deficiencies were found
                    in proposal screening practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          B.        Outside reviewers could enhance
                    independence and objectivity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

IV.       Selecting Official Did Not Catch Minor Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . 11

V.        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

VI.       NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX I - NIST Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - NIST’s Complete Response to the Draft Audit Report
U.S. Department of Commerce                                              Report No. DEN-10961-9-0001
Office of Inspector General                                                           September 1999



                                    EXECUTIVE SUMMARY

The Office of Inspector General has conducted an audit of the fiscal year 1995 through 1997
criteria, procedures and practices for soliciting, reviewing, and selecting applications for financial
assistance under the National Institute of Standards and Technology’s State Technology Extension
Program (STEP), classified as No. 11.613 in the Catalog of Federal Domestic Assistance. The
audit was conducted as part of a Department-wide review of Commerce’s discretionary financial
assistance programs, initiated at the request of the Chairman of the Senate Committee on
Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually.

The STEP program provides financial assistance, through cooperative agreements, to state
governments or non-profit organizations to help states develop manufacturing assistance programs
aimed at small- and medium-sized manufacturers, and to help bring those state programs to a level
of performance where they can provide the full range of manufacturing extension services required
by manufacturers. NIST administers the STEP program through its Manufacturing Extension
Program (MEP) office.

Our audit began as an examination of NIST’s criteria, procedures, and practices for the
solicitation, review, and selection of STEP awards in fiscal year 1997. In fiscal year 1997, NIST
made two STEP awards of $100,000 each, for a total of $200,000 in federal funding. NIST did
not make any STEP awards after 1997 and does not anticipate any future STEP competitions.
NIST intended STEP program funding to assist states with the planning necessary to compete for
an MEP center award. NIST considers the nationwide network of MEP centers to be complete.
Consequently, there are no plans for future MEP center competitions and no need for additional
STEP awards.

NIST had issued on open-ended solicitation for STEP applications in May 1995. After finding
minor deficiencies in the solicitation, review, and selection processes for the fiscal year 1997
awards, we expanded the scope of our audit to include all STEP funding awarded under the May
1995 solicitation. NIST did not award STEP funding in fiscal year 1995, but did make six STEP
awards, totaling about $552,000, in fiscal year 1996. NIST cites the May 1995 solicitation notice
as the basis for funding its 1996 and 1997 STEP awards.

Our audit disclosed that NIST:

l      Developed and published appropriate evaluation criteria for the fiscal year 1995 through
       1997 STEP competition, as required by DAO 203-26, Section 4.02b. (See page 6.)


                                                 -i-
U.S. Department of Commerce                                             Report No. DEN-10961-9-0001
Office of Inspector General                                                          September 1999



l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds, and specifying the criteria
       and process to be used in selecting award recipients, as required by DAO 203-26, Section
       4.02b. (See page 8.)

l      Did not properly screen proposals for compliance with published funding and award
       period requirements, as required by Section 5.3 of NIST’s Source Selection Plan for the
       STEP competition. (See page 10.)

l      Could enhance the independence and objectivity of any future STEP competitions by
       requiring proposal reviewers from outside the program area in accordance with DAO 203-
       26, Section 4.02h1(c). (See page 11.)

We recommend that the MEP Director ensure that:

l      Any future STEP competitions comply with the Department’s requirement for annual
       Federal Register notices.

l      NIST properly screens proposals on any future STEP competitions and disqualify
       awards to prevent awards in excess of published funding and award period limits.

l      NIST enhance the independence and objectivity of any future STEP competitions by
       requiring proposal reviewers to be from outside the program area.

Our recommendations appear on page 12.

In its response to the draft report, NIST agreed with the findings and recommendations. NIST will
publish annual Federal Register notices for any future STEP award competitions, ensure that its
review process prevents any future STEP awards from exceeding published award limits, and
include non-MEP personnel on review panels for any future STEP competitions. In its response,
NIST also provided additional information to explain the noted deficiencies. NIST’s response is
included in its entirety as Appendix II.




                                                -ii-
U.S. Department of Commerce                                            Report No. DEN-10961-9-0001
Office of Inspector General                                                         September 1999



                                       INTRODUCTION

The National Institute of Standards and Technology’s (NIST) primary mission is to promote U.S.
economic growth by working with industry to develop and apply technology, measurements, and
standards. To accomplish a portion of its mission, NIST administers the State Technology
Extension Program (STEP), described in the Catalog of Federal Domestic Assistance (CFDA)
as No. 11.613. The STEP program provides financial assistance, through cooperative agreements,
to state governments or non-profit organizations to help states develop manufacturing assistance
programs aimed at small- and medium-sized manufacturers, and to help bring those state programs
to a level of performance where they can provide the full range of manufacturing extension
services required by manufacturers. STEP is a cost sharing program, under which recipients are
required to provide at least 50 percent of the total project costs. NIST administers the STEP
program through its Manufacturing Extension Program (MEP) office.

The National Institute of Standards and Technology Act directs the Secretary of Commerce,
through the NIST Director, to “... provide technical assistance to State technology programs
throughout the United States, in order to help those programs help businesses, particularly small-
and medium-sized businesses, to enhance their competitiveness through the application of science
and technology.” (15 U.S.C., Sec. 278l) The Act specifies that such assistance may be in the form
of cooperative agreements.

NIST issued an open-ended solicitation notice for STEP applications in May 1995, but did not
award any STEP funding in fiscal year 1995. However, NIST did make six awards, totaling about
$552,000, during fiscal year 1996. Also, in fiscal year 1997, NIST made two STEP awards of
$100,000 each, for a total of $200,000 in federal funding. NIST did not make any STEP awards
after 1997 and does not anticipate any future STEP competitions. NIST intended STEP program
funding to assist states with the planning necessary to compete for an MEP center award. Since
NIST considers the nationwide network of MEP centers to be complete, there are no plans for
future MEP center competitions; hence, no need for additional STEP awards.

Discretionary financial assistance programs are those for which federal agency officials have the
authority to decide (1) which eligible applicants will receive awards, and (2) how much will be
awarded. The use of competitive selection procedures is generally agreed to be the most effective
method of ensuring that financial assistance awards are made on the basis of merit. One of the
primary purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301 et seq)
is to encourage competition in the award of federal financial assistance to the maximum extent
practicable in order to fairly and objectively identify and fund, based on merit, the best possible
projects proposed by applicants, and thereby more effectively achieve program objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering competition-
based financial assistance programs for use by federal agencies. An interagency study group,
convened in 1979 by OMB to examine competition in financial assistance programs, determined
that financial assistance award processes, to ensure effective competition, should include three


                                                -1-
U.S. Department of Commerce                                            Report No. DEN-10961-9-0001
Office of Inspector General                                                         September 1999



basic elements. These elements, as discussed in OMB’s June 1980 report, Managing Federal
Assistance in the 1980s, are still applicable, and include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program review criteria;
       and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth policies and procedures for
administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements the Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity to
       comment on funding priorities. Finally, A-102 requires all grant awards over $25,000 to
       be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Cooperative
       Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
       Organizations, requires agencies to provide the public with advance notice of their
       intended funding priorities for discretionary assistance programs unless such priorities are
       established by federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255), requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.




                                                -2-
U.S. Department of Commerce                                                                                                                                  Report No. DEN-10961-9-0001
Office of Inspector General                                                                                                                                               September 1999



Commerce has relied on these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO) 203-
26, Department of Commerce Grants Administration, requires that (1) all Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and (3)
all Commerce agencies publish, at least annually, a notice in the Federal Register announcing the
availability of funding, soliciting award applications, and specifying the criteria and process to be
used in reviewing and selecting applications for funding.

The following chart depicts the basic process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAO 203-26. The processes we reviewed
during our audit are color coded for this chart and the NIST process chart located in Appendix I.




                                           Department of Commerce Financial Assistance Awards Process
 Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                     PREAWARD SCREENING
  Department




                                                                                                                                     * Office of General Counsel Review         FINANCIAL
                                    POLICIES &
                                                                                                                                                                                ASSISTANCE
                                    PROCEDURES                                                                                       * Office of Inspector General Review       REVIEW BOARD
                                                                                                                                       -- Limited Background Check
                                                                                                                                       -- Credit Review
                                                                                                                                       -- Outstanding Audit Issues




                                                        SOLICITATION
                                                                               REVIEW                  SELECTION                                   PREAWARD SCREENING
  Bureau/Program




                                    POLICIES &          Public announcement
                                    PROCEDURES          and notification of    * Independent Review    *   Quantitative Scores                     * Outstanding Accounts       SIGNED BY GRANT
                                                        financial assistance      Panel(s)
                                                                                                       *   Public Policy Considerations              Receivable                 OFFICER
                                                        opportunities (e.g.,   * Evaluation Criteria
                                                                                                       *   Recommend Action                        * Suspensions & Debarments   OR DESIGNATED
                                                        Federal Register,      * Numeric Ranking       *   Decision Fully Justified and            * Award Prepared Properly    OFFICIAL
                                                        Commerce Business                                  Documented
                                                        Daily, Internet Web
                                                        Sites)
  Financial Assistance Applicants




                                                                                                                                                                                   AWARD
                                                        PROPOSAL




                                                                                                           -3-
U.S. Department of Commerce                                             Report No. DEN-10961-9-0001
Office of Inspector General                                                          September 1999



                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Committee on
Commerce, Science, and Transportation. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review the
discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each IG
review and report on the criteria developed, either statutorily or administratively, to guide agency
officials in making discretionary spending decisions, and on the extent to which the criteria are
appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation for each Commerce financial assistance
program and classified each as either a “full discretion” program or a “limited discretion”
program, based on the extent to which the legislation limits the agency’s authority to independently
determine the recipients and funding levels of the awards made under the program. Finally, we
examined fiscal year 1997 appropriations legislation to identify any legislatively mandated
projects. None were found.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the NIST STEP program. We are evaluating the adequacy of each
program’s established award criteria and procedures for evaluating individual applications. For
those programs with procedures deemed to be adequate, we are ascertaining whether they were
followed in making awards in fiscal year 1997. For those programs with procedures considered
to be inadequate or lacking, we are reviewing how fiscal year 1997 award decisions were made.
Finally, we are examining the legislatively mandated projects identified for each program and
determining their significance and impact on fiscal year 1997 award decisions. We will issue
individual reports, with any appropriate recommendations on each program, followed by a
capping report summarizing the results of the individual audits and providing recommendations for
the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Committee on Commerce, Science, and
Transportation concerning the Department’s discretionary funding programs. The Acting IG
reported on the status of the survey phase of the OIG’s review, and discussed some preliminary
observations from the individual program audits.




                                                -4-
U.S. Department of Commerce                                          Report No. DEN-10961-9-0001
Office of Inspector General                                                       September 1999



This performance audit focused on all STEP awards processed by NIST during fiscal years
1995 through 1997. Specifically, we:

l      Reviewed the authorizing legislation to identify criteria for funding decisions.

l      Reviewed Department and NIST policies and procedures for soliciting, reviewing, and
       selecting recipients for awards (see Appendix I for a flowchart of the process). We
       reviewed NIST’s solicitation, review, and selection process for MEP awards, and
       assessed whether it was in accordance with DAO 203-26, Department of Commerce
       Grants Administration, and Office of Federal Assistance Financial Assistance Notice
       No. 17, Department of Commerce Guidelines for the Preparation of Federal Register
       Notices Announcing the Availability of Financial Assistance Funds -- Requests for
       Applications.

l      Compared NIST’s compliance with prescribed procedures for the fiscal year 1995
       through 1997 award actions to determine if the processes contained adequate internal
       controls to provide for competitive, merit-based awards.

l      Interviewed MEP program officials concerning NIST’s solicitation, review, and
       selection procedures for STEP awards.

We did not rely on computer-based data supplied by NIST and the Department’s Office of
Executive Assistance Management (OEAM) as a basis for our audit findings and
recommendations. We therefore, did not conduct tests of the reliability of the data or the
controls over the computer-based systems that produced the data.

We conducted our audit fieldwork in August 1998 at NIST’s Manufacturing Extension
Partnership Program Office and Grants Office, in Gaithersburg, Maryland. We conducted the
audit in accordance with generally accepted government auditing standards and under the
authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.




                                               -5-
U.S. Department of Commerce                                              Report No. DEN-10961-9-0001
Office of Inspector General                                                           September 1999



                              FINDINGS AND RECOMMENDATIONS

We found that NIST established merit-based criteria and procedures for soliciting and reviewing
STEP candidates and selecting STEP awardees. However, we found deficiencies in NIST’s
solicitation, review, and selection practices for fiscal year 1997 STEP awards. After discovering
the deficiencies in the 1997 process, we expanded the scope of our audit to include fiscal year
1995 and 1996 STEP award activities. We found that deficiencies in the STEP solicitation
practices existed in 1996 and 1997, while problems with the review and selection practices were
limited to the fiscal year 1997 STEP award process. Specifically, we found that NIST:

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds, and specifying the criteria
       and process to be used in selecting award recipients.

l      Did not follow its internal proposal review criteria when it failed to disqualify STEP
       applications that requested funding in excess of published funding limits.

l      Established a one year maximum award period for STEP awards, but did not adequately
       examine proposed award periods to ensure compliance.

In addition, we believe that the independence of any future competitions could be enhanced by
requiring proposal reviewers to be from outside the program area.

I.     NIST Developed and Published
       Appropriate Evaluation Criteria

NIST published a Notice of Availability of Funds, containing competitive criteria for evaluating
STEP applications, in the Federal Register on May 5, 1995. The five evaluation criteria were
weighted, as follows, to provide a maximum score of 100 points.

(1)    Market Research and Assessment (20 points). Applicants should specify a methodology
       for defining the demographics and technical assistance needs of the smaller manufacturers
       in their respective regions. The proposal should include a methodology to ensure that the
       identified needs are met.

(2)    Resource Identification and Assessment (20 points). Applicants should describe the
       methodology for collecting information on existing industrial assistance activities that will
       be part of the coordination effort. Factors to consider include:

       (a)     Methodology for identifying relevant assistance programs and other sources of
               expertise outside the applicant’s organization.

       (b)     Methodology for assessing relevance and effectiveness of resources in identifying
               industry needs.

                                                 -6-
U.S. Department of Commerce                                              Report No. DEN-10961-9-0001
Office of Inspector General                                                           September 1999



(3)    Coordination with Existing Resources (20 points). Applicants should include a plan for
       interacting or coordinating with existing industrial assistance services. Factors to consider
       include:

       (a)     Methodology and adequacy of plans for forming linkages and partnerships
               necessary to plan for and provide a coordinated range of services to meet
               customers’ needs.

       (b)     Safeguards to ensure the planned activity does not duplicate existing services or
               resources.

(4)    Management (25 points). Applicants should specify plans for proper organization,
       staffing, and management. Factors to consider include:

       (a)     Appropriateness and authority of the governing or managing organization to conduct
               statewide or regional activities.

       (b)     Qualifications and demonstrated leadership of the project manager and team.

       (c)     Appropriateness of the organizational approach.

       (d)     Evidence of significant involvement and support by the state.

       (e)     Degree of leadership and control of the proposed process by representatives from
               the private sector and especially small manufacturers.

(5)    Financial Plan (15 points). Applicants should show the relevance and cost effectiveness
       of the financial plan for meeting the objectives of the project; the firmness and level of the
       applicant’s total financial support for the project; and the plan to implement the program
       after the cooperative agreement has expired. Factors to consider include:

       (a)     Cost effectiveness of the budget.

       (b)     The strength of commitment of the proposer’s cost share, and the percentage of the
               cost share that is cash.

       (c)     Effectiveness of management plans for control of budget.

       (d)     The portion of proposed cost share that is in-kind must be appropriate and directly
               related to performing the statement of work.

NIST computed a score for each proposal, ranging from 0 to 100 points, based on the average of
the individual review panel members’ scores. According to NIST’s Source Selection Plan, an


                                                   -7-
U.S. Department of Commerce                                              Report No. DEN-10961-9-0001
Office of Inspector General                                                           September 1999



average score of 70 or higher was considered to be passing. The review panel had the option to
recommend a passing proposal to the selecting official unconditionally for funding, or to
recommend a proposal with specific conditions that needed to be met before it was acceptable for
funding.

Based on our review, we concluded that the STEP criteria for evaluating applicants were designed
to result in merit-based funding decisions.

II.    NIST Did Not Publish Required Annual Federal Register Notices

We found that NIST’s solicitation notice for the most recent STEP competition, as published in the
Federal Register on May 5, 1995, generally complied with Departmental requirements for content.
However, NIST failed to comply with Departmental directives that require publication of annual
Federal Register notices.

Department Administrative Order 203-26, Section 4.02(b), states, “To inform the interested
public, each organization unit shall publish at least annually a notice in the Federal Register which
includes basic information for each discretionary (financial assistance) program.” In addition,
Department of Commerce Financial Assistance Notice No. 17, Section .01, states, “An annual
notice announcing the availability of federal funds for each Department of Commerce competitive
financial assistance program shall be published in the Federal Register.”

In failing to publish annual notices, NIST did not adequately inform interested parties of the
availability of STEP funding, thereby limiting the pool of qualified applicants. Although the May
1995 Federal Register notice stated that $3 million was available for STEP funding, NIST
received only eight applications, requesting approximately $750,000 in federal funding, during the
three fiscal years in which the notice was open. NIST awarded funding to all eight applicants.
The remaining $2.25 million was used for other purposes within the MEP program. Annual
notices would have expanded the public’s knowledge of the STEP program, possibly leading to
more applications.

NIST officials indicated that they intended the May 1995 Federal Register notice to remain open
for successive fiscal years. However, the notice did not state this. In fact, the only indication that
the notice might be open-ended appears in the section titled Proposal Selection Process, which
states, “Proposal evaluation and selection will be performed from the date of publication of this
document until further notice.”

An MEP program official told us that the Federal Register notice was reviewed and approved by
appropriate parties in the Department and nobody had objected to it being open-ended. While we
agree that the notice did not state a specific closing date, we found nothing to indicate that NIST
intended this notice to be the only solicitation for STEP awards in multiple years or that this was
ever communicated to Departmental officials who reviewed and approved the notice.
Furthermore, the Department requires annual notices to be published.

                                                 -8-
U.S. Department of Commerce                                            Report No. DEN-10961-9-0001
Office of Inspector General                                                         September 1999



The MEP program official stated that his office was not aware of the Department’s requirement for
annual Federal Register notices until we brought it to their attention during this audit. We trust
that this review will make the MEP staff more attentive to compliance with Departmental criteria
related to financial assistance programs.

III.   Review Procedures Promoted Merit-Based Decisions
       But Review Practices Need Improvement

NIST’s evaluation procedures for reviewing STEP applications complied with departmental
requirements and promoted merit-based decisions. DAO 203-26, Section 4.02h.1, established the
minimum requirements for competitive reviews of Department of Commerce discretionary
financial assistance applications. In addition to the DAO, NIST published proposal review
procedures for the STEP program in the solicitation notice and in NIST’s internal Source
Selection Plan. We found that while NIST’s proposal review procedures complied with the
minimum requirements of the DAO, it’s proposal review practices need improvement.

NIST received six STEP applications in 1996 and two applications in 1997. We found that each
application was independently reviewed and scored by a three-member review panel, using the
evaluation criteria published in the solicitation notice. In accordance with NIST’s Source
Selection Plan, the panel members’ individual scores were combined to compute an average score
for each application. All six 1996 applications and both 1997 applications received passing
scores — the Source Selection Plan established a minimum passing score of 70 points — and
were recommended for funding by the review panels.

While the STEP review procedures promoted merit-based decisions, we did find a deviation from
the written review procedures for applications received in fiscal year 1997. (NIST followed
review procedures for the six applications it received in 1996.) Specifically, NIST did not follow
its internal review procedures by failing to disqualify applications that requested federal funding
in excess of the published limit. We also found that NIST’s Source Selection Plan did not include
procedures to evaluate proposed award periods for STEP funding, even though the published
solicitation notice stated that awards would have a performance period of one year. Finally, we
believe that NIST could enhance the independence and objectivity of any future STEP
competitions by including reviewers from outside NIST and the Department on review panels.

The STEP review process, as defined in the May 5, 1995 Federal Register notice, involved the
following two phases.

(1) Proposal Qualification. NIST reviews all proposals to assure compliance with proposal
    content and other basic provisions of the solicitation notice. Proposals that satisfy the
    requirements will be designated as qualified proposals. Proposals that NIST determines to
    be non-qualified are to be returned to the proposer for potential resubmission after addressing
    the deficiencies.



                                                -9-
U.S. Department of Commerce                                               Report No. DEN-10961-9-0001
Office of Inspector General                                                            September 1999



(2) Proposal Review. A review panel, composed of at least three reviewers, evaluates all
    qualified proposals, in accordance with the criteria published in the Federal Register notice.
    After scoring, the review panel determines which proposals to recommend for funding. NIST
    is to contact applicants whose proposals were not recommended for funding to provide
    comments and feedback, based on the panel review. The applicant then has the option to
    modify and resubmit its proposal. Since all proposals received were recommended for
    funding, NIST made no such contacts.

A.     Minor deficiencies were found
       in proposal screening practices

We found two minor deficiencies in NIST’s screening practices for STEP proposals. NIST failed
to adequately screen the two STEP proposals received in 1997 to ensure that they complied with:
(1) the published limitation on federal funding and (2) the program’s maximum performance period
of one year per award.

The May 5, 1995 Federal Register notice, under the heading, Funding Availability, stated,
“Proposals must request less than $100,000 in federal funds.” (Emphasis added.) In two other
sections related to cost share requirements, the notice stated, “... the federal share must be less than
$100,000.” (Emphasis added.) NIST incorporated this funding limitation into its Source
Selection Plan for the STEP competition. The Plan lists four bases on which to disqualify a
proposal before it passes to a review panel, including, “Proposals requesting $100,000.00 or
more in Federal funds.”

We found that both STEP proposals submitted in fiscal year 1997 requested $100,000 in federal
funds. Rather than disqualifying the proposals, as the Source Selection Plan required, both
proposals were reviewed by NIST panels. We found no written justification for NIST’s failure to
disqualify the proposals. We discussed NIST’s failure to disqualify the two STEP proposals with
an official of the MEP program office. The official described the review panel’s actions in not
disqualifying the excessive proposals as an administrative oversight.

NIST established a limit on federal funding for STEP awards, then proceeded to ignore the limit
for both proposals submitted in 1997. We acknowledge that the amount by which the proposals
exceeded the published funding limit is insignificant — each was only one dollar above the
ceiling. Our concern rests in NIST’s failure to comply with funding criteria published in the
solicitation notice and review procedures outlined in the Source Selection Plan. Technically,
NIST should have disqualified the two excessive applications and returned them to the applicants
for revision, as required by the solicitation notice. NIST could have avoided this situation by
stating that awards could be made for up to $100,000.

The May 5, 1995 Federal Register notice stated, under the heading, Award Period, “The
cooperative agreements entered into under this program will have a performance period of one
year.” We found that one of the two 1997 STEP applications requested a two-year award period.


                                                 -10-
U.S. Department of Commerce                                           Report No. DEN-10961-9-0001
Office of Inspector General                                                        September 1999



Although the application package clearly disclosed that the applicant was proposing a two-year
award period, we found no mention of the award period in the documentation of the review
panel’s activities. The review panel chairman did not mention the excessive award period in his
funding recommendation memorandum to the selecting official. Thus, the selecting official may not
have known that the applicant had proposed a two-year award period when considering the review
panel’s recommendation.

We do not believe that NIST’s failure to ensure that all STEP awards are for one-year periods
impaired its ability to make merit-based selections. The published selection criteria were
designed to assess an applicant’s ability to fulfill the requirements of STEP recipients. We are
concerned, however, that NIST established a maximum period of performance for STEP awards,
then neglected to ensure that applicants complied with the limitation.

B.     Outside reviewers could enhance
       independence and objectivity

The May 1995 Federal Register notice stated that NIST would appoint an evaluation panel of at
least three reviewers to evaluate all qualified proposals. While NIST complied with the minimum
requirement that each proposal be reviewed by at least three reviewers, we found that all STEP
review panel members for the 1995 through 1997 competition period were MEP program
personnel, some of who had responsibility for administration of the awards made to successful
applicants and, therefore, can not be considered independent reviewers. Although the term
“independent reviewers” is not clearly defined in DAO-203-26, which governs grant
administration, the Department’s Office of Executive Assistance Management has provided
guidance to another discretionary grant program that individuals associated with the management
and administration of a program can not be considered independent reviewers of project proposals
for that program. Consequently, we believe that the use of knowledgeable reviewers from outside
the program area would provide an independent perspective that would enhance the independence
and objectivity of any future STEP competitions.

IV.    Selecting Official Did Not Catch Minor Deficiencies

The final phase in the STEP award process, as defined in the May 5, 1995 Federal Register
notice, is Award Determination. At the conclusion of the review phase, the Director of NIST, or a
designee, makes the final determination to provide funding, based on the review panel’s
recommendations. The respective review panels recommended funding all six proposals received
in fiscal year 1996 and both proposals received in 1997.

The STEP selecting official did not catch the facts that both 1997 STEP applications requested
funding in excess of the published limit and that one proposed award period exceeded the one-
year maximum award period. As a result, the two STEP awards issued in fiscal year 1997 were
processed in spite of the minor deficiencies.



                                              -11-
U.S. Department of Commerce                                          Report No. DEN-10961-9-0001
Office of Inspector General                                                       September 1999



V.     Recommendations

We recommend that the MEP Director ensure that:

1.     Any future STEP competitions comply with the Department’s requirement for
       annual Federal Register notices.

2.     NIST properly screens proposals on any future STEP competitions and
       disqualify awards in excess of published funding and award period limits.

3.     NIST enhances the independence and objectivity of any future STEP
       competitions by requiring proposal reviewers to be from outside the program
       area.

VI     NIST Response

In its response to the draft report, NIST agreed with the findings and recommendations. NIST will
publish annual Federal Register notices for any future STEP award competitions, ensure that its
review process prevents any future STEP awards from exceeding published award limits, and
require that review panels consist of non-MEP personnel for any future STEP competitions. In its
response, NIST also provided additional information to explain the noted deficiencies. NIST’s
response is included in its entirety as Appendix II.




                                              -12-
U.S. Department of Commerce                                                                    Report No. DEN-10961-9-0001
Office of Inspector General                                                                                 September 1999



                                                                                                                   Appendix I
                                                                                                                   Page 1 of 4

                               NIST PROCEDURES FOR SOLICITATION, REVIEW,
                                        AND SELECTION OF AWARDS



                                                                                          A
     NIST publishes Solicitation Notice
      -- In Federal Register
      -- to organizations on mailing list


                                                                            Each subpanel meets to
                                                                            discuss proposal scoring,
                                                                            issues, and questions
                      Proposal



                                                                            Based on discussions,
                                                                            evaluators may adjust
                                                                            scores and comments
          Proposal assigned to
          Subpanel for review

          Subpanel members are MEP
          program staff appointed by
          Chair of SSEB                                                       Individual subpanel
                                                                              evaluator scores combined
                                                                              into single database




                     Subpanel
             determines if proposal             No Proposal not
                                                                              After all proposals are
           satisfies basic qualification           evaluated and
                                                                              evaluated, each subpanel
                      criteria?                    returned to
                                                                              meets to discuss rank
                                                   applicant
                                                                              order and threshold for
                                                                              "forward" or "reject"
                      Yes                                                     decisions




                                                                                Subpanels meet jointly
         Subpanel evaluates proposal
                                                                                to present evaluation
         using electronic scoring
                                                                                results and discuss
         database to record comments
                                                                                decisions
         and scores.

         Evaluation Criteria:

         -- Identification of target firms in
             the proposed region                                                      Subpanels              Yes      1
         -- Technology resources                                              develop list of proposals to         To Page
         -- Technology delivery                                                    forward to SSEB                    2
             mechanisms
         -- Management and financial
             plan                                                                         No



                                                                                            2
                                                                                        To Page 4
                           A




    Solicitation Process                         Review Process    Selection Process
U.S. Department of Commerce                                           Report No. DEN-10961-9-0001
Office of Inspector General                                                        September 1999



                                                                                             Appendix I
                                                                                             Page 2 of 4




                      1
                  From Page                                B
                      1




         Combined subpanel review
         database and SSEB
                                       After all proposals are evaluated,
         electronic scoring database
                                       SSEB meets to discuss rank order
         distributed to SSEB
                                       and threshold for "Site Visit" or
                                       "Reject" decision
         SSEB members include:

         -- Chair (MEP Associate
            Director for Regional
            Programs)
         -- Seven MEP program
            personnel appointed by
            Chair)                                    SSEB                  No       2
                                               Selects Proposals                 To Page 4
                                                 for Site Visit?


         SSEB evaluates proposals                  Yes
         using electronic scoring
         database to record
                                         NIST Grants Office reviews
         comments and scores             financial information and
                                         provides comments to SSEB




         SSEB meets to discuss
         proposal scoring, issues or
         questions
                                       Site visit conducted at NIST with
         Based on discussions,         proposing organization, SSEB,
         evaluators may adjust         MEP Regional Manager & other
         scores and comments           MEP staff




         Individual SSEB evaluators
         scores combined into single              3 to Page 3
         database




                       B
U.S. Department of Commerce                                                         Report No. DEN-10961-9-0001
Office of Inspector General                                                                      September 1999



                                                                                                          Appendix I
                                                                                                          Page 3 of 4




             3 from page                                       C
                   2




                                                 SSEB Chair submits
    SSEB evaluates site visit                    proposal funding
                                                 recommendations to
    interview results and
                                                 Selecting Official
    determines preliminary
    consensus score


                                                 Selecting Official reviews
    SSEB evaluates proposer's                    recommendations to ensure
    answers to questions                         program coherence &
    posed by SSEB and meets                      consistency
    to discuss and adjust final
    consensus scores




    SSEB meets to discuss rank                        Selecting Official             No
    order and threshold for                          concurs with SSEB                    SSEB is reconvened for
    making "Fund" or "Reject"                        recommendations?                     reconsideration & further
    decisions                                                                             evaluation


                                                         Yes


                                                                                               2
                                                        Is proposal            No          to Page 4
                SSEB              No                 recommended for
            recommends                    2               funding?
              funding?                 To Page
                                          4
             Yes                                           Yes




                   C

                                                  Sent to NIST Grants Office
                                                     and Department for
                                                           clearance
U.S. Department of Commerce                                                         Report No. DEN-10961-9-0001
Office of Inspector General                                                                      September 1999



                                                                                                   Appendix I
                                                                                                   Page 4 of 4




                                             2
                                       from pages
                                         1, 2 & 3




                                   Subpanel or SSEB
                                   finalizes review
                                   documentation



                              After final concurrence by
                              Selecting Official,
                              "Rejection" letter sent to
                              proposer




                                        Debriefing         No
                                      requested by
                                                                No further action
                                        proposer?



                                       Yes


                                Final documentation
                                reviewed by Regional
                                Manager




                                  Debriefing
                                  conducted by
                                  Regional Manager
